'
                                                            AUDIT




                     OFFICE OF
                     INSPECTOR GENERAL
                     U.S.DEPARTMENT OF THE INTERIOR




      BUREAU OF LAND MANAGEMENT'S
      HELIUM PROGRAM




    Report No.: C-IN-MOA-00 I 0-20 I I                November 2012
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR

                                                                                NOV 0 9 2012
Memorandum

To :           Michael J. Pool
               Acting Director, Bure u of Land Mana ement

From:          Mary L. Kendall
               Deputy Inspector Gene

Subject:       Final Audit Report- Bureau of Land Management's Helium Program
               Report No. C-IN-MOA-001 0-2011

       This report presents the results of our audit of helium sales under the direction of the
Bureau of Land Management (BLM). BLM has a current inventory ofhelium valued at
approximately $1 billion, and provides about 40 percent ofthe Nation's helium and 30 percent of
helium to the world market. Without changes to the program, there is no assurance that BLM's
nongovernmental helium sales occurring over the next 5 to 7 years will be made at market value.

        Specifically, we found that BLM does not have the capability needed to identify and
maintain market value prices for its helium reserve. The Bureau's long history of selling helium
primarily to Federal buyers through a limited number of private refiners has restricted its ability
to determine market value for its sales. High-technology uses have led to a rapid rise in helium
demand in recent years, making the determination of market value for the Government's supply
more critical. In addition, BLM is managing nongovernmental helium sales without the formal
procedures needed to guide program operations. Our report makes three recommendations to
strengthen the Bureau's management of its helium inventory.

      BLM concurred with all of our recommendations in response to our draft report (see
appendix 3). Accordingly, we consider all of these recommendations to be resolved but not yet
implemented (see appendix 4). No further response to this report is required. We will refer the
recommendations to the Assistant Secretary for Policy, Management and Budget to track
implementation.

      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit reports issued, actions taken to implement our
recommendations, and recommendations that have not been implemented.

        If you have any questions regarding this report, please call me at 202-208-5745.




                                Office of Inspector General I Washington, DC
Table of Contents
Results in Brief ....................................................................................................... 1

Introduction ............................................................................................................. 2
   Objective ............................................................................................................. 2
   Background ......................................................................................................... 2

Findings................................................................................................................... 4
   Obtaining Helium Market Value ......................................................................... 4
   Managing Helium Sales ...................................................................................... 6

Conclusion and Recommendations ......................................................................... 7
   Conclusion........................................................................................................... 7
   Summary of Recommendations .......................................................................... 7

Appendix 1: Scope and Methodology..................................................................... 9
   Scope ................................................................................................................... 9
   Methodology ....................................................................................................... 9

Appendix 2: Prior Audit Coverage ....................................................................... 10
   2008: Immediate Action Needed to Stop the Inappropriate Use of Cooperative
   Agreements in the BLM’s Helium Program ..................................................... 10
   2010: Follow-Up to Office of Policy Analysis Report, “Review of Selective
   Aspects of the Federal Helium Program” ......................................................... 10

Appendix 3: BLM’s Response .............................................................................. 11

Appendix 4: Status of Recommendations ............................................................. 15
Results in Brief
The Federal Government has effectively controlled the market for helium for
almost a century through its position as a predominant supplier. In managing the
Federal helium program, the Bureau of Land Management (BLM) has a
responsibility to receive a fair return on its helium inventory. At recent BLM
prices, sales of its helium inventory would generate about $1 billion in revenue.
Current prices are established based on cost rather than on market value. The
market value of BLM’s helium inventory will be potentially much higher as new
and expanding technologies create significant growth in demand.
Due to existing and potential new pending legislation, BLM likely will sell the
vast majority of its remaining helium inventory to private or nongovernmental
purchasers by 2020. For each percentage point increase in value, BLM would
collect an estimated $10 million in additional helium revenues. A 25 percent
increase would generate $250 million in additional gross revenues. Depending on
what market value is established for helium and the future cost of program
operations, BLM could collect this amount or more. To capitalize on this
opportunity, BLM needs to identify and to charge market value for all helium
sales to nongovernmental purchasers.
Timely action is required to ensure the helium program can operate effectively
over the coming years. The program has a current debt of approximately $44
million, resulting from large helium purchases made in the 1960s. BLM estimates
repayment of the debt in 2013. After this repayment, the fund established to
support the program will terminate. 1 According to BLM, this would have the
effect—absent reauthorization of the fund or other appropriations action—of
ending its ability to pay for continuing program operations.
In addition, to better support the sale of helium as a revenue enhancement
opportunity, BLM’s helium program would benefit from the establishment of
formal written procedures for nongovernmental sales to protect against fraud,
waste, and mismanagement.




1
    50 U.S.C. § 167d (e)(2)(B)




                                                                                    1
Introduction
Objective
To determine whether the Bureau of Land Management (BLM) is charging
market value prices for its helium sales to nongovernmental purchasers 2 and if
BLM requires additional program guidance. Helium transfers to Government
agencies were not included in the scope of this audit. For the complete scope and
methodology of our review, see appendix 1.

Background
Helium, a byproduct of natural gas production, is a critical and nonrenewable
natural resource used primarily as a highly effective coolant in high-tech uses.
BLM is responsible for selling the Federal inventory of helium and has a supply
of approximately 13.5 billion cubic feet. At recent BLM prices, this helium has a
value of about $1 billion. Helium annual sales to Government and to
nongovernmental users total about 2.3 billion cubic feet and, in 2011, generated
revenues of about $168 million. BLM currently supplies about 40 percent of the
Nation’s helium and 30 percent of helium to the world market.
The United States first recognized the value of helium for early military aviation.
Current military and Government applications include helium’s use as a coolant
for rocket engines and research for superconductivity. Private commercial uses
include applications for magnetic resonance imaging and production of
microchips.
To meet Federal needs in the early 20th century, the Government established a
facility near Amarillo, TX, which remains the program’s primary operating
location. This facility originally produced, refined, and supplied helium for
critical Government needs.
The regulatory history of the Government’s control of helium production and
sales started with the Mineral Leasing Act of 1920. It reserved to the United
States the right to extract helium from all natural gas produced under the act.
In 1925, Congress passed the Helium Act. This legislation created the Federal
helium program to ensure that helium would be available for purposes of National
military defense.
In 1960, Congress amended the Helium Act, authorizing the purchase of a larger
inventory of helium to meet anticipated future Government needs. This resulted in
the program assuming considerable debt to accomplish the provisions of the
amendment.



2
    BLM refers to these helium sales as conservation crude sales.




                                                                                      2
In 1996, Congress closed the Bureau of Mines and transferred responsibilities for
the Federal helium program to BLM. During that same year, Congress passed the
Helium Privatization Act, which was designed, in part, to end the Government’s
role in producing, refining, marketing, and selling helium by 2015, with the
exception of maintaining a small reserve for Federal purposes. Currently, BLM
sells its helium to four nongovernmental purchasers that have refineries along
BLM’s helium pipeline. Proceeds from helium sales are directed to a fund that
supports Interior’s operation of the helium program.

The 1996 Privatization Act also froze the program’s debt as of October 1, 1995,
and required helium sales to be priced, at a minimum, to cover operating costs and
repay the debt incurred by the Government when it purchased the large inventory
of helium in 1960. BLM estimates that this debt, which is approximately $44
million, will be paid off in 2013. Upon repayment of this debt, the helium fund
will terminate. According to BLM, this will have the effect— absent
reauthorization of the fund or other appropriations action—of ending the
Department’s ability to pay for continuing program operations.
With bipartisan support, Congress is now proposing to further amend the Helium
Act through the Helium Stewardship Act of 2012 (S.2374). The proposed
legislation would reauthorize the program and specifically require the Secretary of
the Interior to sell helium intended for nongovernmental use at approximate
market value. Under market conditions, BLM’s remaining helium inventory may
be worth considerably more than its current $1 billion valuation. Sales of BLM’s
remaining inventory to nongovernmental purchasers are estimated to continue
until sometime between 2018 and 2020.
BLM officials informed us—and industry, research, and newspaper articles
confirm—that helium is in seriously short supply. Industry predictions suggest
that helium prices will increase when BLM exits the market, as a result of supply
and demand. A 2011 international industry 3 article reported that nongovernmental
helium producers have been increasing the price of helium at rates nearly three
times greater than BLM has over the past decade. The article further predicts
prices will continue rising at double-digit annual rates over the next several years.




3
    “Tight Supply Reins In The Worldwide Helium Market,” CryoGas International, October 2011.



                                                                                                3
Findings
BLM is not obtaining market value for its helium reserve, which has resulted in
the missed opportunity to collect millions in additional helium revenue.
Nongovernmental sources purchase approximately 90 percent of BLM’s helium
sales in any given year. Although BLM has recently increased helium prices for
these users, the increases cover only BLM’s operating costs and do not reflect the
market value of the resource. In addition, BLM is managing nongovernmental
helium sales without formal procedures to guide program operations.

Obtaining Helium Market Value
BLM has a window of opportunity to collect many millions of dollars in
additional helium sales revenue, if it acts quickly. This opportunity is currently
being missed because BLM’s prices reflect only its costs, not market value.
BLM’s helium sales are occurring at a time of rapidly increasing worldwide
demand, and BLM faces challenges in identifying and obtaining market prices.
In 2010, a National Academy of Sciences study concluded that the 1996
Privatization Act had adversely affected critical users of helium and that selling
off the supply, as required, was not in the best interest of U.S. taxpayers or the
Nation. The report concluded that enormous BLM sales volumes, which then
equaled approximately 50 percent of total U.S. demand, controlled prices
worldwide, giving no assurance that BLM’s helium price had any relationship to
market value. The National Academy of Sciences encouraged Congress to
reconsider selling off BLM’s helium supply and made ten recommendations, most
of which BLM implemented.
In response to the National Academy of Sciences report, BLM raised its
nongovernmental sales price for helium from $64.75 to $75 per thousand cubic
feet (Mcf) in fiscal year 2011. BLM announced it would raise the price further in
2013, to $84 per Mcf, to reclaim costs not currently being recovered.

BLM’s current inventory is valued at approximately $1 billion. For each
percentage point increase in value, BLM would collect an estimated $10 million
in additional helium revenues (see figure 1). A 25 percent increase would
generate $250 million in additional gross revenues. Depending on what market
value is established for helium and the future cost of program operations, BLM
could collect this amount or more. To capitalize on this opportunity, BLM needs
to identify and to charge market value for all helium sales to nongovernmental
purchasers.




                                                                                     4
                   Additional Potential Gross Revenues
                                                        …then additional gross
                                                       revenues from the sale of
   If valuation were to increase by:                       helium would be:
                   1%                                          $10 million
                   5%                                          $50 million
                  10%                                         $100 million
                  25%                                         $250 million

Figure 1. Additional potential gross revenues based on increased valuation from a $1 billion base.
Source: OIG

Once BLM repays the program’s current debt of approximately $44 million,
which it estimates will be repaid in 2013, any revenue realized by BLM beyond
its operating costs will result in increased revenues to the U.S. Treasury.
BLM officials provided several reasons that may prevent them from determining
market value:
    1. Helium producers have been unwilling to provide sufficient comparative
       sales data to BLM.
    2. The limited number of refiners (four) that purchase the BLM helium
       inventory prevents BLM from effectively using open competition to
       obtain market value.
    3. BLM’s market dominance sets or influences helium’s market value for
       other producers, and this distorts the true market value.

The U.S. Department of the Interior’s Office of Minerals Evaluation (OME) is
responsible for helping bureaus to identify and obtain market value for all
minerals on Federal lands. OME officials told us that they could assist BLM in
developing a process to determine helium’s market value. This additional
expertise would help BLM in identifying and obtaining market value for its
helium.
We issued a Notice of Potential Findings and Recommendations (NPFR) to BLM
in July 2012. BLM concurred with our NPFR and agreed to work with OME to
identify and obtain the market value of helium.

 Recommendations

          1. BLM should work with OME to develop a process to identify the
             fair market value price of helium sold to nongovernmental buyers.
          2. To ensure a fair return, BLM should implement the new helium
             pricing process by the end of 2013.




                                                                                                5
Managing Helium Sales
BLM has been operating without formal procedures for nongovernmental helium
sales since it assumed responsibility for the helium program in 1996. Establishing
formal procedures not only provides for consistency in program operations, but
also creates a baseline for internal controls. Without proper internal controls in
place, the risk of fraud, waste, and mismanagement is increased.
Officials at the Amarillo Field Office told us that, in 2005, they provided draft
regulations to the BLM headquarters office for finalization. Headquarters staff
replied to the Amarillo Field Office that they did not have time to finalize the
draft regulations and, therefore, no action was taken. Although we asked for a
copy of the draft regulations sent to the headquarters office, BLM could not locate
a copy.
Amarillo Field Office personnel did provide a copy of a framework, signed in
April 2012, for internal control procedures related to nongovernmental helium
sales. While this is a start, the implementation of more comprehensive procedures
is necessary for managing the program and reducing the risk of fraud, waste, and
mismanagement.
We discussed the need for comprehensive procedures with BLM’s Deputy
Assistant Director – Minerals and Realty Management. He agreed that BLM
needs to document program procedures. Because sales to nongovernmental
organizations likely will be significantly decreased or eliminated as BLM reduces
its helium inventory, he suggested that implementing procedures in the BLM
manual or handbook might be more appropriate than through the Code of Federal
Regulations.
The NPFR we issued in July 2012 noted that BLM did not have formal written
procedures for managing nongovernmental sales. BLM concurred with our
recommendation to fully develop and document program procedures.

 Recommendation

        3. BLM should prepare and implement comprehensive procedures for
           managing its helium sales to nongovernmental buyers.




                                                                                 6
Conclusion and Recommendations
Conclusion
This report provides highlights of the history of Government helium sales and
provides recommendations that, if implemented, may help BLM obtain fair
market value from future sales. Legislation passed during the 1990s authorized
that the Government’s sale of helium stores essentially be concluded by 2015,
with the exception of a small reserve of gas maintained for Federal purposes. Due
to complications with determining fair market value for these reserves, BLM
continues to sell its helium stores at prices set during the 1990s, with adjustments
only for inflation and changes in the program’s operating costs. There is no
assurance that BLM’s prices reflect the market value of helium, which has
increased dramatically in the private sector as changes in technology have led to
ever new and increasing uses for the resource.

We believe that BLM has a short window of opportunity to determine and obtain
market value for its helium reserves. In so doing, BLM will help to ensure that the
Government receives an appropriate return for the sale of this significant natural
resource.

Summary of Recommendations
BLM responded to our draft report by concurring with all of our
recommendations and agreeing to “take swift action”. In its response, it identified
a responsible official and target date for each recommendation (see appendix 3).

1. BLM should work with OME to develop a process to identify the fair market
   value price of helium sold to nongovernmental buyers.

   BLM’s Response
   BLM and OME are working together on “several options” to “establish an
   economically defensible price for helium”. BLM anticipates initiating related
   contracting as soon as January 2013.

2. To ensure a fair return, BLM should implement the new helium pricing
   process by the end of 2013.

   BLM’s Response
   While acknowledging that it might encounter some “difficulty in developing
   the new methods and procedures,” BLM agreed to work toward new pricing
   for FY 2014.

3. BLM should prepare and implement comprehensive procedures for managing
   its helium sales to nongovernmental buyers.




                                                                                   7
   BLM’s Response
   BLM agreed to “develop a comprehensive manual” by December 2013.

OIG Analysis of BLM’s Response
We consider all three recommendations to be resolved but not yet implemented
(see appendix 4). The recommendations will be referred to the Assistant Secretary
for Policy, Management and Budget for tracking of implementation.




                                                                                8
Appendix 1: Scope and Methodology
Scope
The scope of the review focused on nongovernmental sales conducted by BLM’s
Amarillo Field Office.

Methodology
We conducted this audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

To accomplish the objective of this audit, we—
   • gathered general, administrative, and background information to provide a
       working knowledge of the helium program;
   • identified and reviewed policies and procedures related to the helium
       program;
   • conducted site visits to interview personnel at BLM’s headquarters and
       Amarillo Field Office;
   • reviewed current and proposed legislation impacting the helium program;
       and
   • reviewed BLM pricing information for nongovernmental helium sales.




                                                                                    9
Appendix 2: Prior Audit Coverage
The Office of Inspector General has issued two related reports in the past 5 years
addressing the helium program in BLM:

2008: Immediate Action Needed to Stop the
Inappropriate Use of Cooperative Agreements in
the BLM’s Helium Program
In August 2008, we issued an evaluation report, “Immediate Action Needed to
Stop the Inappropriate Use of Cooperative Agreements in the BLM’s Helium
Program (No. WR-IV-BLM-0003-2008/OI-CO-07-0206-I). This evaluation was
initiated because of a complaint received about activities occurring between BLM
and a contractor representing several helium refiners on the BLM helium pipeline.
These activities portrayed a less-than-arms length relationship between BLM and
the contractor that allowed the circumvention of procurement regulations. At the
time of our evaluation, we realized that BLM was contemplating the renewal of
two, 15-year cooperative agreements that should have been procurement
contracts. We also identified several weaknesses that leave the Government
vulnerable to fraud, mismanagement, and potentially large monetary losses. In
addition, we found overcharging, possible double-billing, costly short-term
financing, and unjustified allocation of equipment costs. The Department has
indicated that the recommendations have been implemented; we have not verified.

2010: Follow-Up to Office of Policy Analysis Report,
“Review of Selective Aspects of the Federal Helium
Program”
In response to our 2008 report, BLM asked the Department’s Office of Policy
Analysis (PPA) to conduct an independent review of the helium program with a
primary focus on our recommendations. PPA issued its report in June 2010. We
reviewed the PPA report and BLM’s planned actions, and issued an inspection
report, “Follow-Up to Office of Policy Analysis Report, ‘Review of Selective
Aspects of the Federal Helium Program’” (WR-IN-BLM-0003-2010). In this
report, we urged BLM to make necessary changes to improve the transparency
and accountability of the helium program. The Department has indicated that
most of the recommendations have been implemented; we have not verified.




                                                                                 10
Appendix 3: BLM’s Response
The bureau’s response to the draft report follows on page 12.




                                                                11
                 United States Department of the Interior
                            BUREAU OF LAND MANAGEMENT
                                 Washington, DC 20240
                                  http://www.blm.gov
                                          NOV .. 6 2012
In Reply Refer To:
1245(W0-830)

Memorandum

To:           Mary L. Kendall
              Deputy Inspector General        d                  ~

Through:       Marcilynn A. Burke    f)OJ. 0Jv'~                ·      ~
               Acting Assistant Secretary - Land anf1 Minerals Management

From:
               ~~~;~!ect~R______
Subject:       Response to the Office of the Inspector General's Draft Audit Report, titled,
               "Bureau of Land Management's Helium Program" (Report No. C-IN-MOA-0010-
               2011)

On October 25, 2012, the Office of the Inspector General (OIG) issued its draft report, titled,
"Bureau of Land Management's Helium Program" (Report No. C-IN-MOA-0010-2011). The
report contained the following three recommendations:

        1. BLM should work with the Office ofMinerals Evaluation (OME) to develop a
           process to identify the fair market value price of helium sold to
           nongovernmental buyers.
        2. To ensure a fair return, the Bl¥"eau of Land Management (BLM) should
           implement the new helium pricing process by the end of 2013.
        3. BLM should prepare and implement comprehensive procedures for managing
           its helium sales to nongovernmental buyers.

The BLM agrees to take swift action on implementing the recommendations of the OIG. If you
have any questions, please contact Danita Burns, Acting Field Manager, Amarillo Field Office,
at 806-356-1002, or BLM's Audit Liaison Officer, LaVanna Stevenson, at 202-912~7077.

Attachment




                                                                                             12
             Response to the Office of the Inspector General's Final Report
"Bureau of Land Management's Helium Program" (Report No. C-IN-MOA-0010-2011)

Recommendation 1: BLM should work with OME to develop a process to identify the fair
market value price of helium sold to nongovernmental buyers.

Response: The BLM concurs with recommendation 1 and is actively engaging the Office of
Minerals Evaluation (OME) in determining the crude helium open market value and procedures
to manage the helium sales to nongovernmental buyers. The BLM' s Amarillo Field Office and
the Department of Interior' s OME have developed several options for determining a new and fair
pricing of sales to nongovernmental buyers, including retention of a third-party to collect and
analyze market data. In order to establish an economically defensible price for helium, the BLM
must first determine an equilibrium market price that reflects two considerations- the cost to
refine helium and the supply/demand for helium.

Target Date: The BLM is targeting December 2012 to complete the statement of work and
initiate contracts by January 2013 .

Responsible Officials: Jesse Juen, BLM New Mexico State Director.


Recommendation 2: To ensure a fair return, BLM should implement the new helium pricing
process by the end of 2013.

Response: The BLM concurs with recommendation 2. Historically, the BLM has determined
any adjustments to the helium price by the end of March; the prices changes then become
effective on October 1. The time required to determine these procedures and the proposed
timeline to complete and implement the new pricing process by October 1, 2013, may require a
later time in posting the new price than the BLM has strived for in the past. Although the BLM
may have difficulty in developing the new methods and procedures and setting a new price in
accordance with those methods and procedures by March 2013 , the BLM plans to implement
them as soon as practicable.

Target Date: The BLM will work with OME contractor to implement the new methods and
procedures as quickly as possible in time for FY 2014.

Responsible Officials: Jesse Juen, BLM New Mexico State Director.


Recommendation 3: BLM should prepare and implement comprehensive procedures for
managing its helium sales to nongovernmental buyers.

Response: The BLM concurs with recommendation 3. The BLM will develop a comprehensive
manual, documenting the procedures for managing its helium sales to nongovernmental buyers.
The BLM's Amarillo Field Office and OME have developed and are currently evaluating several
options for determining a new and fair pricing process for helium sales to nongovernmental

                                                                                         13

                                               2
buyers. The BLM will include the process it ultimately selects in its comprehensive procedures
manual.

Target Date: The BLM will complete the process manual by December 2013.

Responsible Officials: Jesse Juen, BLM New Mexico State Director.




                                                                                         14

                                              3
Appendix 4: Status of
Recommendations
In response to our draft report, BLM concurred with all three of our
recommendations and agreed to implement them. The response included target
dates and an action official for each recommendation (see appendix 3). We
consider all three recommendations resolved and not implemented.

 Recommendations            Status                   Action Required


 1, 2, and 3                Resolved, not            The recommendations will
                            implemented              be referred to the
                                                     Assistant Secretary for
                                                     Policy, Management and
                                                     Budget for tracking of
                                                     implementation.




                                                                             15
                                    


            Report Fraud, Waste,                                      
            and Mismanagement
                                       
                  Fraud, waste, and mismanagement in
                  government concern    everyone: Office
                of Inspector General staff, Departmental
                 employees, and the general public. We
                    actively solicit allegations of any
                           and wasteful practices, fraud,
                inefficient
                     and mismanagement related to
               
                 Departmental or Insular Area programs
                                                         
                     and operations.  You can report
                    allegations to us  in several ways.
                                        
                                    
                                    
     By Mail:           U.S. Department of the Interior  
                        Office of Inspector General  
                        Mail Stop 4428 MIB  
                        1849 C Street, NW  
                        Washington, D.C. 20240  
      
     By Phone:          24-Hour Toll Free                               
                                                            800-424-5081
                        Washington Metro Area               202-208-5300
                                                                        
      
     By Fax:            703-487-5402
      
     By Internet:       www.doioig.gov
  
                                                                            
